No.

In the

Supreme Court of the United States
_____________
RODNEY RENARD NEWBERRY,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.
_____________
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Petitioner Rodney Renard Newberry asks leave to file the attached petition for
a writ of certiorari without prepayment of costs and to proceed in forma pauperis.
Petitioner has previously been found indigent and allowed to proceed in forma
pauperis in the Circuit Court of the Fourth Judicial Circuit in and for Duval County,
Florida, and the Florida Supreme Court.
Petitioner’s affidavit or declaration is not attached because the court below
appointed counsel in the current proceeding, and the appointment was made under
section 27.52, Florida Statutes.

1

Respectfully submitted,
ANDY THOMAS
Public Defender
/s/ Richard M. Bracey, III
RICHARD M. BRACEY, III*
Assistant Public Defender
*Counsel of Record for Petitioner
SECOND JUDICIAL CIRCUIT OF FLORIDA
OFFICE OF PUBLIC DEFENDER
301 South Monroe Street, Ste. 401
Tallahassee, Florida 32301
(850) 606-1000
mose.bracey@flpd2.com

2

